Audit of the SEC Budget
Execution Cycle




                                             March 29, 2011
                                             Report No. 488
Audit Conducted by Acuity Consulting, Inc.
Audit Conducted by Acuity Consulting, In



                                                                    UN I TED STATES
                                                   SECURITIES AND EXCHANGE COMMISSION
                                                               WASHINGTON . D . C .   20S49



            O .... 'C,. 0 .. TH "
                        cu.. ,. .."' ..
      l I" " .. ,.CTO R
                                                            MEMORANDUM
                                                                    March 29, 2011

                          To:                   Kenneth A. Johnson, Chief Financial Officer, Office of Financial
                                                 Management (OFM)

                           From:                H. David Kotz, Inspector General, Office of Inspector General   (OI W"'
                                                                                                                      #~
                          Subject :             Audit of the SEC Budget Execution Cycle, Report No. 488

                          This memorandum transmits the U.S. Securities and Exchange Commission OIG's
                          final report detailing the results on our audit of the SEC's budget execution cycle.
                          This audit was conducted as part of our continuous effort to assess management of
                          the Commission's programs and operations and as a part of our annual audit plan.

                          The final report contains nine recommendations which if fully implemented should
                          strengthen OFM's budget operations. OFM concurred with all the recommendations.
                          Your written response to the draft report is included in Appendix VI.

                          Within the next 45 days, please provide the OIG with a written corrective action plan
                          that is designed to address the recommendations. The corrective action plan should
                          include information such as the responsible offiCial/point of contact, timeframes for
                          completing required actions, and milestones identifying how you will address the
                          recommendations.

                          Should you have any questions regarding this report, please do not hesitate to
                          contact me. We appreciate the courtesy and cooperation that you and your staff
                          extended to our auditor and contractors during this audit.

                          Attachment

                          cc;             Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                                          Luis A. Aguilar, Comm issioner
                                          Troy A . Paredes, Commissioner
                                          Elisse B. Walter, Commissioner
                                          Jeffery Heslop , Chief Operating Officer, Office of the Chief Operations
                                            Officer
                                          Mark Cahn, General Counsel, Office of the Genera l Counsel
                                          Diego T. Ruiz, Executive Director, Office of the Executive Director
                                          Diane Galvin, Assistant Director, Planning and Budget Office, Office of
                                            Financial Management


c


                      Audit of the SEC Budget Execution Cycle                                                   March 29, 2011
                      Report No. 488
                                                                          Page i
    Audit of the SEC Budget Execution Cycle

                           Executive Summary
Background. The Securities and Exchange Commission (SEC or Commission)
Office of Inspector General (OIG) contracted with Acuity Consulting, Inc. (Acuity),
to conduct an audit of the SEC’s budget execution processes and to identify
potential areas for improvement.

The mission of the SEC is to protect investors, maintain fair, orderly, and efficient
markets, and facilitate capital formation. To fulfill its mission, the SEC is financed
through an annual general fund appropriation that is enacted by Congress that
may remain available until expended and through occasional supplemental
appropriations that are available for a specific period of time.

During fiscal years (FY) 2009 and 2010, and as in other FYs, the SEC’s annual
general fund appropriation consisted of a “Salaries and Expenses” account within
the President’s Budget. In FYs 2009 and 2010, the SEC obligated over $966
million and $1.1 billion, respectively, against the funds available. Pursuant to
P.L. 111-32, enacted on June 24, 2009, the SEC received a supplemental
appropriation of $10 million that was available for FYs 2009 and 2010 with the
stated purpose of “investigation of securities fraud.”

The SEC has various headquarters functions that are located in the Washington,
D.C, area, including the Office of Financial Management (OFM), which
administers the agency’s financial management and budget functions.
Organizationally, OFM has reporting responsibilities to the Office of the Executive
Director (OED) for budget formulation and budget execution functions and to the
Office of Chief Operating Officer for the finance, accounting, and treasury
operation functions. OFM is headed by the Associate Executive Director
(Finance), who also serves as the SEC’s Chief Financial Officer. OFM is
organized into two primary offices: (1) the Finance and Accounting Office, which
is responsible for accounting policies, procedures, and operations, and (2) the
Planning and Budget Office, which is responsible for the formulation and
execution of the SEC’s budget. The OFM Planning and Budget Office consists of
two branches: (1) Budget, Formulation and Execution, and (2) Performance and
Planning.

The SEC uses two software applications for the budget development and budget
execution processes. The Budget and Program Performance Analysis System
(BPPAS) is an activity-based costing/performance-based budgeting system
software application that the SEC uses for the budget planning and formulation
process and for developing the annual operating budget. BPPAS downloads and


Audit of the SEC Budget Execution Cycle                                 March 29, 2011
Report No. 488
                                          Page ii
updates appropriation, apportionment, allocation, suballocation, 1 and budget
transfers data to Momentum, the SEC’s core financial system of record, at
varying levels of detail. Obligation data in BPPAS is updated by uploads of
obligation data from the Momentum system, which is used to record all of the
SEC’s budget execution and accounting transactions. The Momentum system
further maintains the Commission-wide general ledger and produces the financial
and external reports that are submitted periodically to the U.S. Department of the
Treasury (Treasury) and other Federal entities.

The SEC budget process consists of formulation, submission, approval,
execution, and reporting. The budget execution process, which is the focus of
this audit, includes the enactment of an appropriation, obtaining the Office of
Management and Budget’s (OMB) approval of an apportionment (i.e., a plan to
spend resources that identifies amounts legally available for obligations and
expenditures), and making allocations and suballocations to the SEC’s various
offices and divisions. After apportionment, OFM staff load the funding allocations
as reflected in BPPAS to Momentum, and these amounts are then available for
commitment and obligations.

The Government Accountability Office (GAO) reported in GAO Report No.10-
250, SEC’s Financial Statements for Fiscal Years 2009 and 2008, that since its
2007 audit of the SEC, there were several repeat control deficiencies within the
SEC, including “ineffective processes and related documentation concerning
budgetary transactions.” Further, in GAO Report No.11-202, SEC’s Financial
Statements for Fiscal Years 2010 and 2009, GAO reaffirmed the following three
open recommendations reported in prior audit reports: (1) correcting general
ledger system configurations for upward and downward adjustments of prior-
years’ undelivered orders, (2) clarifying administrative control of funds guidance
for staff performing obligation activities, and (3) establishing and implementing
controls related to the recording statute.

Objectives. The overall objective of the audit was to determine whether
sufficient management controls over the SEC’s budget execution processes were
in place and operating effectively.

Results. The audit identified a number of control deficiencies concerning the
SEC’s budget execution processes. Specifically, the audit found that the SEC
may have violated the Purpose Statute, 31 U.S.C. § 1301, during the period a
supplemental appropriation was available for obligation due to inconsistent
appropriations selection on contract modifications for information technology (IT)

1
  An “apportionment” is “[a] distribution made by OMB of amounts available for obligation in an appropriation
or fund account into amounts available for specified time periods, activities, projects, objects or
combinations thereof.” SEC-R 14-1, Administrative Control of Funds, § 2.b. An “allotment” is “authority to
incur obligations within a specified amount . . . ,” and a “suballotment” is a “subdivision of an allotment.”
SEC-R 14-1, Administrative Control of Funds, § 2.c. The SEC uses allocations and suballocations, rather
than allotments and suballotments.

Audit of the SEC Budget Execution Cycle                                                    March 29, 2011
Report No. 488
                                                 Page iii
acquisitions and expert witness fee services. In the course of our fieldwork, we
noted the inconsistent citing of appropriations for contract modifications related to
certain IT projects and expert witness fee services once an appropriation had
been selected for the initial contract. Specifically, we identified eight contracts
that inconsistently cited appropriations once the initial appropriation was
selected; of these eight contracts, six initially cited the supplemental
appropriation, while subsequent contract modifications cited the SEC’s general
appropriation.

In accordance with guidance found in GAO’s Principles of Federal Appropriations
Law (Red Book), when two appropriations are available for the same purpose, an
agency is required to select one appropriation and continue to use that
appropriation consistently throughout its availability, unless the statutory
language clearly demonstrates congressional intent to make one appropriation
available to supplement or increase a different appropriation for the same type of
work. We found no express language in the act containing the supplemental
appropriation that clearly demonstrated congressional intent to have both
appropriations available for the same type of work, as was the situation in a prior
Comptroller General decision. As a result of the SEC’s failure to select and use
one appropriation consistently for particular IT projects and expert witness fees,
the SEC may have violated the Purpose Statute during the period when the
supplemental appropriation was available for obligation. In addition, we
determined that the SEC may have violated the Antideficiency Act, 31 U.S.C. §
1341(a), as the supplemental appropriation no longer has sufficient funds to
accommodate adjustment of the potential Purpose Statute violation. In
discussions with OFM, we were informed that management’s position is that the
SEC did not violate the Purpose Statute because it believed that the exception to
the requirement to select and use one appropriation applied. We consulted with
and were advised by GAO that a formal opinion was appropriate to resolve this
matter. Accordingly, we are recommending that the SEC request an opinion on
the matter from the Comptroller General.

In addition, the audit found that a senior budget analyst in OFM inactivated the
Momentum financial system budgetary controls to facilitate the processing of
payroll transactions. We found no evidence that senior or executive
management authorized the budget analyst’s inactivation of Momentum budget
document controls. The inactivation of Momentum budget document controls
allowed the sum of the allocation amounts issued in FY 2010 to exceed the FY
2010 apportionment. We determined that the fact that the SEC’s allocations
exceeded the apportionment was contrary to both OMB guidance and the SEC’s
Administrative Control of Funds Regulation, SEC-R 14-1. Moreover, the
inactivation of budget controls by OFM staff could lead to a violation of the
Antideficiency Act, 31 U.S.C. § 1517(a).

Further, the audit found that the BPPAS system is configured to track only one
appropriation symbol. As a result, the SEC does not have full visibility of its

Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page iv
budgetary authority and the purposes for which it is used. Effective in FY 2012,
under Section 991 of the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank Act), Congress has established a separate
appropriation titled “Securities and Exchange Commission Reserve Fund,” in
addition to the Commission’s annual general appropriation. In an environment of
multiple appropriations, the SEC needs to have BPPAS configured to accept
more than one appropriation to avoid an increased level of manual override
activity and mitigate the increased effort required to support congressional
reporting requirements under the Dodd-Frank Act. In the absence of full visibility
of purpose and use of funds, the SEC may be at risk of future Purpose Statute
and Antideficiency Act violations related to the separate “Securities and
Exchange Commission Reserve Fund” appropriation established under the
Dodd-Frank Act.

The audit also found that OFM does not have a formal budgetary training
program to ensure that its personnel with budgetary responsibilities are
appropriately trained and are aware of the requirements associated with their job
functions. Instead, OFM budgetary personnel learn via on-the-job training and
rely on informal materials such as handwritten notes. We learned that although
the SEC is preparing for the release of a new training system, there is no current
plan to offer budget training through this new system.

In addition, the audit identified a deficiency in the design of internal controls in
that OFM does not require written authorization of reprogramming and
realignment actions between two-digit Budget Object Classes. Further, OFM’s
reprogramming and realignment actions are subject to a diminished audit trail
and a lack of timely monitoring throughout the year of budget execution. As a
result, the SEC has an increased risk of exceeding established Appropriations
Act reprogramming thresholds during the year of execution.

Summary of Recommendations. In order to improve internal controls over the
budget execution process, we are recommending that

       (1)     OFM, in consultation with OGC, request a formal opinion
               from the Comptroller General as to whether the SEC violated
               the Purpose Statute, and as a consequence the
               Antideficiency Act, by charging certain costs of information
               technology projects and expert witness fees to both the
               general and supplemental appropriations;

       (2)     OFM, in consultation with the OED and OGC, establish
               policies and guidance on how to fund expenditures where
               there are multiple appropriations available for the same
               purpose;



Audit of the SEC Budget Execution Cycle                                  March 29, 2011
Report No. 488
                                          Page v
       (3)     OFM complete a risk reassessment and include the
               inactivation of Momentum budget controls as a high-risk
               area in the OFM Reference Guide 01-06, General Guidance:
               Override of Internal Control;

       (4)     OFM revise the Internal Control Override Template included
               in OFM Reference Guide 01-06, General Guidance:
               Override of Internal Control, to include a section for follow-up
               actions to ensure financial integrity or statutory compliance
               and ensure that significant overriding of financial controls be
               required to be approved by senior-level officials;

       (5)     OFM formally document its allotments as required by
               Appendix H of OMB Circular A-11 to evidence the transfer of
               legal responsibility for funds to the recipient;

       (6)     OFM initiate a review of the BPPAS capability to
               accommodate multiple appropriations;

       (7)     OFM, in consultation with the Office of Human Resources,
               develop and establish a formal, ongoing SEC-focused
               budgetary training program;

       (8)     OFM revise the current reprogramming and realignment
               procedures to require that the Budget Officer or the Assistant
               Director, Planning and Budget, approve all reprogramming
               and realignment actions that cross two-digit Budget Object
               Classes in writing; and

       (9)     OFM establish a process to sufficiently and accurately track
               reprogramming and realignment activities in one central location.




Audit of the SEC Budget Execution Cycle                                 March 29, 2011
Report No. 488
                                          Page vi
TABLE OF CONTENTS
Executive Summary .............................................................................................. ii

Table of Contents ............................................................................................... vii

Background and Objectives .......................................................................... 1
     Background ............................................................................................... 1
     Objectives .................................................................................................. 5

Findings and Recommendations .................................................................. 6
     Finding 1: By Alternating Between Two Separate Appropriations, the SEC
                 May Have Violated the Purpose Statute and, as a
                 Consequence, the Antideficiency Act ...................................... 6
                   Recommendation 1............................................................. 10
                   Recommendation 2............................................................. 10

         Finding 2: The SEC Inactivated Momentum Budgetary Controls to
                     Facilitate Processing Payroll Transactions, Which Could Lead
                     to a Violation of the Antideficiency Act .................................. 11
                       Recommendation 3............................................................. 14
                       Recommendation 4............................................................. 14
                       Recommendation 5............................................................. 15

         Finding 3: The SEC’s BPPAS System Is Not Configured to Accept More
                     Than One Appropriation ........................................................ 15
                      Recommendation 6............................................................. 17

         Finding 4: OFM Does Not Have a Formal Budgetary Training Program .. 17
                      Recommendation 7............................................................. 18

         Finding 5: OFM Does Not Require Written Authorization of
                     Reprogramming and Realignment Actions Between Budget
                     Object Classes ...................................................................... 19
                      Recommendation 8............................................................. 20

         Finding 6: Reprogramming and Realignment of Funds Are Not Sufficiently
                     Tracked by OFM .................................................................... 20
                      Recommendation 9............................................................. 23

Tables
     Table 1: FY 2009 Quarterly Budget Reports. .......................................... 12
     Table 2: FY 2010 Quarterly Budget Reports ........................................... 12
     Table 3: Budget Documents Reviewed ................................................... 13


Audit of the SEC Budget Execution Cycle                                                           March 29, 2011
Report No. 488
                                                    Page vii
Appendices
    Appendix I: Acronyms/Abbreviations. .................................................... 24
    Appendix II: Scope and Methodology ..................................................... 25
    Appendix III: Criteria ................................................................................ 28
    Appendix IV: List of Recommendations ................................................... 30
    Appendix V: Schedule of Potential Purpose Statute Violations ............... 32
    Appendix VI: Management’s Comments .................................................. 33
    Appendix VII: OIG Response to Management’s Comments ..................... 36




Audit of the SEC Budget Execution Cycle                                                     March 29, 2011
Report No. 488
                                                 Page viii
                 Background and Objectives

Background
Based on the Office of Inspector General’s (OIG) annual audit plan, OIG
contracted the professional services of Acuity Consulting, Inc. (Acuity), to
conduct an audit of the SEC’s budget execution processes. The mission of the
Securities and Exchange Commission (SEC or Commission) is to protect
investors; maintain fair, orderly, and efficient markets; and facilitate capital
formation. To fulfill its mission, the SEC is financed through an annual general
fund appropriation enacted by Congress that may remain available until
expended (“no-year” funds), and through occasional supplemental appropriations
that are available for a specific period of time.

During fiscal years (FY) 2009 and 2010, and as in other FYs, the SEC’s annual
general fund appropriation consisted of a “Salaries and Expenses” account within
the President’s Budget. Each Appropriations Act required the SEC to offset its
annual general fund appropriation against the exchange and filing fees the SEC
collected from corporate registrants so as to result in a final general fund
appropriation estimated at not more than $0. Further, each Appropriations Act
provided that the appropriation of such offsetting collections shall be available
until it is expended for necessary expenses. The purpose of this type of general
fund appropriation is to ensure that there are sufficient budgetary resources for
obligations at the beginning of a FY, while ultimately financing the obligations
with exchange and filing fees that the SEC collects. In FY 2009 and FY 2010,
the SEC obligated over $966 million and over $1.1 billion, respectively,
representing legal liabilities against funds that were available to the SEC to pay
for the goods and services that were ordered.

Pursuant to P.L. 111-32, enacted on June 24, 2009, the SEC received a
supplemental appropriation of $10 million that was available for obligations in
FYs 2009 and 2010 with the stated purpose of “investigation of securities fraud.”
This supplemental appropriation was not subject to financing through offsetting
collections, and is similar to the SEC’s annual general fund appropriation.

The SEC has18 offices, 11 regional offices, and 5 divisions within its offices that
are responsible for fulfilling the SEC’s mission. The 5 divisions are located both
at the SEC’s headquarters and in its 11 regional offices. The SEC has various
headquarters functions that are located in the Washington, D.C., area, including
the Office of Financial Management (OFM), which administers the agency’s
financial management and budget functions.

Organizationally, OFM has reporting responsibilities to the Office of the Executive
Director (OED) for the budget formulation and budget execution functions and to

Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page 1
the Office of Chief Operating Officer for the finance, accounting, and treasury
operation functions. OFM is headed by the Associate Executive Director
(Finance), who also serves as the SEC’s Chief Financial Officer (CFO). OFM is
organized under two primary offices: (1) the Finance and Accounting Office,
which is responsible for accounting policies, procedures, and operations, and (2)
the Planning and Budget Office, which is responsible for the formulation and
execution of the SEC’s budget.

Overseen by an Assistant Director, the OFM Planning and Budget Office consists
of two branches: (1) Budget, Formulation and Execution, and (2) Performance
and Planning. The Budget, Formulation and Execution Branch consists of seven
individuals: one budget officer, one management analyst, four budget analysts,
and one budget technician.

The SEC uses two software applications for the budget development and budget
execution processes. The Budget and Program Performance Analysis System
(BPPAS) is an activity-based costing/performance-based budgeting system
software application that the SEC uses for the budget planning and formulation
process and for developing the annual operating budget. BPPAS downloads and
updates appropriation, apportionment, allocation, suballocation, and budget
transfers data to Momentum, the SEC’s core financial system of record, at
varying levels of detail. Obligation data in BPPAS is updated by uploads of
obligation data from Momentum. The Momentum system (Version 6.1.5) is used
to record all SEC budget execution and accounting transactions. The system
further maintains the Commission-wide general ledger and produces the financial
and external reports that are submitted periodically to the U.S. Department of the
Treasury (Treasury) and other Federal entities.

The SEC uses a “participatory” budget formulation process in that funding is
requested by the SEC’s constituent offices and is allocated through BPPAS. The
SEC’s budget formulation process begins about 20 months prior to the start of
the FY, when the SEC begins to prepare its annual authorization request to
Congress. The authorization request, which is due to the Financial Services
Committee, U.S. House of Representatives, and the Banking, Housing, and
Urban Affairs Committee, U.S. Senate, by May 15 of each year, typically covers
a two-year period that includes the upcoming year and the year thereafter.
During the budget authorization development process, OFM contacts all SEC
offices and divisions for staffing and resource requests that are to be submitted
through BPPAS.

OFM summarizes the staffing and resource requests and presents them to the
Executive Director (ED). The ED’s changes are integrated into the requests for
staffing and resource decisions and are then presented by the ED to the SEC
Chairman. OFM, along with the Office of General Counsel (OGC) and the
Chairman’s staff, drafts an authorization request that is based on the Chairman’s
decisions. Generally, the staffing and resource levels approved by the Chairman

Audit of the SEC Budget Execution Cycle                             March 29, 2011
Report No. 488
                                          Page 2
for the SEC’s authorization request serve as the upper bounds for the amounts
the Commission will consider for its upcoming budget submission to the Office of
Management and Budget (OMB).

Concurrent with the process outlined above, BPPAS consolidates budget
submissions and produces a master budget spreadsheet (referred to in BPPAS
as the “crosswalk”) that is based on the non-personnel resource requests of the
SEC’s offices/divisions. OFM uses this spreadsheet to “price out” the SEC’s
proposed budget, which means adjusting the offices/divisions’ requested
amounts for inflation and other economic assumptions provided by OMB,
conversion/annualization of positions into full-time equivalents, making
adjustments for pay raises, and incorporating costs associated with program
increases.

Once the budget submission is approved by OMB, OFM adjusts the crosswalk to
reflect the revised resource levels. OFM then opens a “congressional
justification” in BPPAS for the SEC’s offices/divisions to update their narratives
and workload to reflect the agreed-upon funding levels for submission as part of
the President’s budget to the Congress.

Subsequent to the submission of the President’s budget, the CFO issues an
“Operating Budget Call” letter that contains guidance and the due dates for
submitting fund allocation requests and the related justifications. Fund allocation
requests, by Budget Object Class (BOC), are submitted through BPPAS from the
originating organization (office/division) to OFM’s Planning and Budget Office. A
BOC is a method for identifying the specific purpose for which the funds are
being used. Certain funding requests (e.g., travel, IT equipment) are submitted
through a “consolidating organization” (e.g., Division of Enforcement, Office of
Administrative Services, Office of Information Technology, Office of Human
Resources) prior to being submitted to the Planning and Budget Office. Pay and
benefits costs are centrally calculated within OFM’s Planning and Budget Office.

The fund allocation requests are reviewed within BPPAS by assigned budget
analysts, leaders within OFM, the CFO, and the ED. The ED may consult with the
Chairman’s staff prior to approving the operating budgets. BPPAS data reflects:
   •   Originating organization request,
   •   Consolidating organization request,
   •   Requesting organization (either originating organization or consolidating
       organization) justifications for the funds,
   •   OFM recommendations (with justifications or calculations), and
   •   Decision.

Upon approval of the fund allocation requests, OFM requests that originating
organizations provide a quarterly breakdown of their approved funding. The
quarterly breakdown supports the basis for the apportionment request to OMB.

Audit of the SEC Budget Execution Cycle                               March 29, 2011
Report No. 488
                                          Page 3
In the absence of specifically requested quarterly breakdowns, BPPAS uses a 25
percent default value for each quarter.

The SEC’s budget execution process begins with enactment of the SEC’s
appropriation. Pursuant to OMB Circular A-11, an apportionment is a plan that is
approved by OMB to spend resources provided by an annual Appropriations Act,
a Supplemental Appropriations Act, a continuing resolution, or a permanent law
(mandatory appropriation). The apportionment identifies amounts that are legally
available for obligations and expenditures. It further specifies and limits the
obligations that can be incurred and the expenditures that can be made (or
makes other limitations, as appropriate) for specified time periods, programs,
activities, projects, objects, or any combination thereof. An apportioned amount
may be further subdivided by an agency into allotments, suballotments, and
allocations. Allotments are the formally documented assignment of legal
responsibility for the subdivision of apportioned funds made by heads of
agencies. Suballotments are a subdivision of an allotment and also carry formal
assignment of legal responsibility for the funds. Further administrative
subdivisions of suballotments that do not transfer legal responsibility for funds
are allowances, allocations, and suballocations.

Within the SEC, funding is subdivided and is then issued to the Commission’s
offices/divisions through the use of allocations and suballocations directly from
the apportionment. Once funding is apportioned, the funding allocations as
reflected in BPPAS are loaded into Momentum by OFM staff and are then
available for commitments and obligations.

The Government Accountability Office (GAO) reported in GAO Report No.10-
250, SEC’s Financial Statements for Fiscal Years 2009 and 2008, that since its
2007 audit of the SEC, GAO had identified several repeat control deficiencies,
including the SEC’s “ineffective processes and related documentation concerning
budgetary transactions.” Further, in GAO Report No.11-202, SEC’s Financial
Statements for Fiscal Years 2010 and 2009, three open recommendations
reported in prior audit reports were reaffirmed. These recommendations related
to (1) correcting general ledger system configurations for upward and downward
adjustments of prior years’ undelivered orders, (2) clarifying administrative
control of funds guidance for staff performing obligation activities, and (3)
establishing and implementing controls related to the recording statute.

As a result of the continuing deficiencies with respect to OFM’s budget execution
process, and in accordance with the SEC OIG’s annual audit plan, Acuity was
hired by way of a competitive contract to conduct this engagement.




Audit of the SEC Budget Execution Cycle                               March 29, 2011
Report No. 488
                                          Page 4
Objectives
The OIG contracted the professional audit services of Acuity to identify potential
areas for improvement with regard to the Commission’s budget execution
processes. The overall objective of the audit was to determine whether sufficient
management controls over the SEC’s budget execution processes were in place
and were operating effectively.

Acuity’s additional objectives were as follows:
   •   Examine the various lines of authority and responsibility with regard to
       Commission budget decisions (e.g., which individuals are making budget
       decisions and if these individuals are properly trained, permitted to make
       these decisions by law).
   •   Examine the Commission’s processes for administrative division and
       subdivision of funds.
   •   Examine the policies and procedures in place to ensure appropriate
       spending of approved budgets (e.g., ensuring that there are no
       Antideficiency Act violations).
   •   Examine the SEC’s policies and procedures for monitoring obligations
       incurred to ensure that apportionments and allotments are not exceeded.
   •   Test contractor gaps and deficiencies with respect to non-payroll
       obligations, de-obligation reviews, and contract closeout procedures.




Audit of the SEC Budget Execution Cycle                              March 29, 2011
Report No. 488
                                          Page 5
                Findings and Recommendations

Finding 1: By Alternating Between Two
Separate Appropriations, the SEC May Have
Violated the Purpose Statute and, as a
Consequence, the Antideficiency Act
          The SEC may have violated the Purpose Statute during the
          period the supplemental appropriation was available for
          obligation due to inconsistent appropriations selection on
          contract modifications for information technology acquisitions
          and expert witness fee services. Because there were
          insufficient funds to accommodate adjustment of the
          potential Purpose Statute violations, the SEC may have also
          violated the Antideficiency Act.

Federal agencies are required to comply with the content of various
appropriations acts and obligate funds only for the purposes for which the
appropriation was enacted, as provided in 31 U.S.C. § 1301, commonly referred
to as the Purpose Statute:
     Appropriations shall be applied only to the objects for which the
     appropriations were made except as otherwise provided by
     law. 2

Federal agencies are provided additional guidance in accordance with the
Purpose Statute under the GAO Principles of Federal Appropriations Law (Red
Book), Chapter 2.B.2.b, for instances in which multiple appropriations are
available:
     Where two appropriations are available for the same purpose,
     the agency may select which one to charge for the expenditure
     in question. Once that election has been made, the agency
     must continue to use the same appropriation for that purpose
     unless the agency at the beginning of the fiscal year informs the
     Congress of its intent to change for the next fiscal year. 3

This guidance on multiple available appropriations is supported by the U.S.
Comptroller General’s decision in the matter of Unsubstantiated DOE Travel
Payments, GAO-RCED-96-58R (Washington, D.C., Dec. 28, 1995).


2
    Purpose Statute, op. cit., 1301 (a).
3
    GAO, Principles of Federal Appropriations Law, Third Edition, p. 2-23.

Audit of the SEC Budget Execution Cycle                                      March 29, 2011
Report No. 488
                                                  Page 6
Further, the following exception to the rule is provided in Red Book Chapter
2.B.2b:
         Of course, where statutory language clearly demonstrates
         congressional intent to make one appropriation available to
         supplement or increase a different appropriation for the
         same type of work, both appropriations are available. 4

The exception to the rule is supported by the U.S. Comptroller General’s decision
in the matter of Funding for Army Repair Projects, B-272191 (Nov. 4, 1997). In
this decision, the Army was not required to make an election between two
appropriation accounts available for major repair and minor construction projects
during fiscal year 1993 because Congress had specifically authorized the use of
both accounts for such projects in section 301 of P.L. 103-35. As a result, the
Army was permitted to use Operations and Maintenance funds for property
maintenance and repair work in Germany even though Real Property
Maintenance, Defense funds were available for the same work.

The SEC is financed through an annual general appropriation of funds enacted
by Congress that may remain available until expended based on “no-year” funds
that are used to fund the Commission’s necessary expenses in fulfilling its
mission of protecting investors, maintaining fair, orderly, and efficient markets,
and facilitating capital formation. These expenses include payroll and related
expenses, travel, printing, information technology (IT), and other equipment
purchases and services. Further, as part of the appropriations language in each
FY’s appropriations act, the SEC is required to offset its appropriations through
offsetting collections. 5,6 Treasury has designated the SEC’s annual general
appropriation with the Treasury Appropriation Fund Symbol (TAFS) of
“50X0100.”

Pursuant to P.L. 111-32, enacted on June 24, 2009, the SEC received a
supplemental appropriation of $10 million for FYs 2009 and 2010 for the stated
purpose of “investigation of securities fraud.” 7 Unlike the SEC’s general annual
appropriation, the supplemental appropriation was not subject to financing
through offsetting collections. Treasury designated the supplemental
appropriation with a separate, distinct TAFS of “5009/100100.” This supplemental
appropriation is referred to and designated in OFM’s core financial accounting
system as the “M0100” appropriation.

During our fieldwork, we found that OFM did not develop and publish clear
funding guidance on the use of the supplemental appropriation for non-
4
  Ibid, p. 2-23.
5
  2009 Omnibus Appropriations Act, P.L. 111-8, p. 148.
6
  2010 Consolidated Appropriations Act, P.L. 111-17, p. 164.
7
  2009 Supplemental Appropriations Act, P.L. 111-32, p. 21. The full text of this provision stated as follows:
“For an additional amount for necessary expenses for the Securities and Exchange Commission,
$10,000,000, to remain available until September 30, 2010, for investigation of securities fraud.”

Audit of the SEC Budget Execution Cycle                                                     March 29, 2011
Report No. 488
                                                  Page 7
information technology expenditures. The only written guidance we found was a
memorandum dated July 23, 2009, from the OED that listed several IT projects
for which funds could be obligated using the “M0100” appropriation.

As implemented by SEC management, the separate “M0100” appropriation was
used for three main purposes:
            •    compensation costs,
            •    investigations-related IT costs, and
            •    expert witness fees and litigation support costs.

Our audit obtained the following information with regard to each of these
categories:
 i. Compensation Costs – SEC employees were individually identified by name
    with their respective compensation costs charged 100 percent to the “M0100”
    appropriation.

ii. Investigations-Related IT Costs – Guidance provided in the July 23, 2009,
    OED memorandum 8 identified IT projects supporting the investigation of
    securities fraud as the following:
        •       Document Imaging Operation & Maintenance,
        •       Tips & Complaint System,
        •       Native File Searching for Investigations System,
        •       Forensic Tools, Maintenance & Supplies System,
        •       Automated Blue Sheet Analysis System, and
        •       Electronic Documents 2.0 Project.

iii. Expert Witness Fees and Litigation Support Costs – During our fieldwork, we
     were informed that management direction and practice for non-payroll
     expenditures were to use the “M0100” appropriation first and to the extent
     available, since both the time available for execution and the amount
     appropriated were limited.

In the course of our fieldwork, we noted the inconsistent citing of appropriations
for contract modifications related to certain IT projects and expert witness fee
services once the appropriation had been selected for the initial contract. This
practice primarily related to the “M0100” appropriation cited on the initial contract
with subsequent contract modifications citing the “X0100” appropriation. We also
noted some instances where the initial contract cited the “X0100” appropriation
with subsequent contract modifications citing the “M0100” appropriation.

In accordance with the Red Book Chapter 2.B.2.b guidance, when two
appropriations are available for the same purpose, an agency is required to

8
    “Use of Funds from 2009 Supplemental Appropriation,” Memorandum, June 23, 2009.

Audit of the SEC Budget Execution Cycle                                               March 29, 2011
Report No. 488
                                               Page 8
select one appropriation and continue to use that appropriation consistently
throughout its availability, unless the statutory language clearly demonstrates
congressional intent to make one appropriation available to supplement or
increase a different appropriation for the same type of work. Congress did not
expressly state in P.L. 111-32 that the additional appropriation was intended to
increase or supplement another appropriation, as was the case in the matter of
Funding for Army Repair Projects, B-272191 (Nov. 4, 1997).

We identified and reviewed 12 contracts totaling $18,058,198 that cited both the
“M0100” and “X0100” appropriations during FY 2009 and FY 2010. Of these 12
contracts, we identified 8 contracts that inconsistently cited an appropriation once
the initial cite had been selected. Six of these 8 contracts were for certain IT
projects and expert witness fees and initially cited the “M0100” appropriation in
FY 2009; however, subsequent contract modifications cited the “X0100”
appropriation. The remaining 2 of the 8 contracts we identified were for expert
witness fees and initially cited the “X0100” appropriation in FY 2009; subsequent
contract modifications, however, cited the “M0100” appropriation. Further details
on the 8 contracts are provided in Appendix V.

As a result of the SEC’s failure to adhere to the Red Book Chapter 2.B.2.b 9
regarding selecting an appropriation and continuing to use that appropriation
consistently throughout its availability, the SEC may have violated the Purpose
Statute 10 during the period when the supplemental “M0100” appropriation was
available for obligation. Further, as explained in the Red Book, Chapter 6.C.2.d,
a violation of the Purpose Act may sometimes result in a violation of the
Antideficiency Act:
         Where . . . no other funds were authorized to be used for
         the purpose in question (or where those authorized were
         already obligated), both 31 U.S.C. § 1301(a) and § 1341(a)
         have been violated. In addition, we would consider an
         Antideficiency Act violation to have occurred where an
         expenditure was improperly charged and the appropriate
         fund source, although available at the time, was
         subsequently obligated, making readjustment of accounts
         impossible. 11

At the end of FY 2010, $106,521 was available for obligation from the “M0100”
appropriation. The net effect of adjusting the potential Purpose Statute violations
would require additional obligations of $1,425,333 from the “M0100”
appropriation instead of the “X0100” appropriation. Accordingly, as defined in
GAO Red Book Chapter 6.C.2.d, 12 we determined that the SEC may have

9
   GAO Red Book, op. cit., p. 2-23.
10
   Purpose Statute, op. cit., 1301(a).
11
   GAO Red Book, op. cit., p. 6-79.
12
   Ibid, p. 6-79.

Audit of the SEC Budget Execution Cycle                               March 29, 2011
Report No. 488
                                          Page 9
violated the Antideficiency Act 13 as the supplemental “M0100” appropriation does
not currently have sufficient funds to accommodate adjustment of the potential
Purpose Statute violations. Although sufficient funds existed at the time of the
error, they have since been obligated and/or expended.

In discussions with OFM, we were informed that management’s position is that
the SEC did not violate the Purpose Statute because the exception to the rule
cited in Red Book Chapter 2.B.2b. applied to the SEC’s general and
supplemental appropriations during FYs 2009 and 2010. The OIG in subsequent
conversations with GAO staff members was notified that a formal opinion was
appropriate to resolve this matter. Accordingly, we are recommending that an
opinion be requested from the Comptroller General.

      Recommendation 1:

      The Office of Financial Management, in consultation with the Office of
      General Counsel, should request a formal opinion from the Comptroller
      General as to whether the Commission violated the Purpose Statute, and as
      a consequence the Antideficiency Act, by charging certain costs of
      information technology projects and expert witness fees to both the general
      and supplemental appropriations.

      Management Comments. OFM concurred with the recommendation. See
      Appendix VI for management’s full comments.

      OIG Analysis. We are pleased that OFM concurred with this
      recommendation.

      Recommendation 2:

      The Office of Financial Management, in consultation with the Office of the
      Executive Director and the Office of General Counsel, should establish
      policies and guidance on how to fund expenditures where there are multiple
      appropriations available for the same purpose.

      Management Comments. OFM concurred with the recommendation. See
      Appendix VI for management’s full comments.

      OIG Analysis. We are pleased that OFM concurred with this
      recommendation.




13
     Antideficiency Act, 31 USC 1517.

Audit of the SEC Budget Execution Cycle                              March 29, 2011
Report No. 488
                                          Page 10
Finding 2: The SEC Inactivated Momentum
Budgetary Controls to Facilitate Processing
Payroll Transactions, Which Could Lead to a
Violation of the Antideficiency Act
           A senior budget analyst in OFM inactivated the Momentum
           budgetary controls to facilitate processing payroll
           transactions. The inactivation of these budgetary controls
           could lead to the SEC’s violating the Antideficiency Act.

Pursuant to OMB Circular A-123, management is responsible for establishing and
maintaining internal control to achieve the objectives for effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations. 14 Further, guidance is provided to Federal agencies on the
President’s Budget process and the basic laws that regulate the preparation,
submission, and execution of the budget through OMB Circular A-11. In
particular, Part 4 of OMB Circular A-11 contains instructions on the budget
execution process to include guidance on the apportionment and reapportionment
process, reporting on budget execution and budgetary resources, and a checklist
for fund control regulations (Appendix H) that agencies must comply with in their
respective administrative control of funds regulation.

Pursuant to Appendix H, Checklist for Fund Control Regulations, each Federal
agency’s management is responsible for ensuring the integrity of its agency’s
administrative control of funds. According to Appendix H, Section 11, an
agency’s administrative control of funds regulation is required to include a policy
that the sum of:
       •   Allotment amounts issued will not exceed the apportionment, and
       •   Suballotment amounts issued will not exceed the allotment amount.

Further, Section 4 of Appendix H provides, “Your regulation must specify that
violations of allotments and suballotments are violations of the Antideficiency
Act.” 15

Pursuant to the SEC’s Administrative Control of Funds Regulation, SEC-R 14-1,
the following are cited as restrictions:
      •    The sum of the allotments issued shall not exceed the apportionment.
      •    The sum of suballotments issued shall not exceed the allotment amount.
      •    The sum of allowances issued shall not exceed the sum of the allotments.


14
     OMB Circular A-123, Management's Responsibility for Internal Control.
15
     OMB Circular A-11, Appendix H, p. 2.

Audit of the SEC Budget Execution Cycle                                      March 29, 2011
Report No. 488
                                                 Page 11
Under current SEC practice, allowances (also referred to as allocations) are
issued to the SEC’s offices/divisions by fiscal quarter and BOC. A BOC identifies
the specific purpose for which funds are being used by a Federal agency.
Despite referencing the subdivision of funds in the SEC’s Administrative Control
of Funds Regulation, SEC-R 14-1, OFM has not formally documented its
allotments or suballotments, as required by Appendix H, to evidence the transfer
of legal responsibility of funds to recipients.

The SEC’s core financial system of record is the Momentum system (Version
6.1.5). The application is used to record all the SEC’s budget execution and
accounting transactions, maintain the agency’s Commission-wide general ledger,
and produce the financial and external reports that are periodically submitted to
Treasury and other Federal entities. The subdivisions of funds maintained in the
Momentum system are (1) apportionment, (2) allocation level, and (3)
suballocation level.

During our fieldwork, we compiled and reviewed the SEC’s FY 2009 and FY
2010 Quarterly Budget Reports from Momentum for each subdivision of funds
level, as identified in Tables 1 and 2.

Table 1: FY 2009 Quarterly Budget Reports
 FY 2009:              1st Qtr           2nd Qtr           3rd Qtr           4th Qtr           Total
 Apportionment     $240,215,085      $239,954,490      $270,647,332      $209,183,093      $960,000,000
 Allocation        $240,014,086      $239,977,606      $270,542,267      $209,104,835      $959,638,794
 Suballocation     $239,902,358      $240,001,294      $270,647,017      $209,310,360      $959,861,029
Source: Momentum.

Table 2: FY 2010 Quarterly Budget Reports
 FY 2010:              1st Qtr           2nd Qtr           3rd Qtr           4th Qtr           Total
 Apportionment     $277,750,000      $412,839,397      $263,296,391      $157,114,212 $1,111,000,000
 Allocation        $277,908,320      $412,838,768      $263,299,391      $157,105,290 $1,111,151,769
 Suballocation     $277,759,535      $412,837,684      $263,296,391      $157,106,390 $1,111,000,000
Source: Momentum.

We noted discrepancies between the subdivision of funds levels for each fiscal
year. For FY 2009, for example, we found that the total suballocation amount of
$959,861,029 exceeded the total allocation amount of $959,638,794. Further, for
FY 2010, we found that the total allocation amount of $1,111,151,769 exceeded
the total apportionment amount of $1,111,000,000. Upon further research into
the FY 2010 subdivision of funds discrepancy, the following five budget
documents, as shown in Table 3, were identified as the root cause of the issue: 16



16
  A budget document is a mechanism within Momentum to add (i.e., positive action) or reduce (i.e.,
negative action) funds at each of the subdivision of funds levels.

Audit of the SEC Budget Execution Cycle                                                  March 29, 2011
Report No. 488
                                               Page 12
Table 3: Budget Documents Reviewed
Document No.            Process Date          Purpose                      Amount
AA/SEC-1-136            Sept. 30, 2010        Travel/Transportation       $ 3,000
AC/SEC-10-152           Oct. 22, 2010         Payroll Awards               148,785
AC/SEC10-163            Oct. 22, 2010         Payroll                        1,084
AC/SEC-10-179           Nov. 3, 2010          Payroll                         -100
AC/SEC-10-198           Dec. 1, 2010          Payroll                       -1,000
Net Effect of Budget Document Changes                                     $151,769
Source: OIG Generated.

The Momentum application has budgetary controls designed to mitigate the risk
of funding overallocation and are activated through a set value of “Reject” (i.e.,
attempts to exceed a given budget level will be rejected by the application)
following the importation of budget document transactions from BPPAS. SEC
personnel are prevented from exceeding a given budget level unless the
application budgetary controls are changed directly within Momentum.

Our audit found that certain designated OFM budget staff are empowered to
process budget documents directly into the Momentum application. Currently,
OFM has granted Momentum system rights to the two OFM senior budget
analysts that, among other things, permit the analysts to override Momentum’s
budgetary controls.

During our research into the FY 2010 subdivision of funds discrepancy, we were
advised that a senior budget analyst had overridden the Momentum budgetary
controls to facilitate the processing of several budget documents directly into
Momentum. Despite being requested, no evidence was provided to support the
senior or executive management authorization of the inactivation of Momentum
budget document controls. The inactivation of Momentum budget document
controls allowed the sum of the allocation amounts that were issued to exceed
the FY 2010 apportionment.

On September 16, 2010, OFM management established OFM Reference Guide
01-06, General Guidance: Override of Internal Control, to address the lack of
formal policies or procedures for managing the risk of fraud and the override of
internal controls. The guide describes the SEC’s actions and processes
designed to establish a positive ethical environment and to address the risk of
fraud and override of internal controls, and the methods to monitor and report
instances of override of internal control.

Our review of OFM Reference Guide 01-06 noted that the document’s effective
date preceded the budget document processing dates when the Momentum
budgetary controls were overridden. Further, we found that no budget execution
controls were identified as high-risk and included in the baseline risk assessment
completed by the Risk Assessment team as referenced in OFM Reference Guide
01-06 and, therefore, the Reference Guide was not applicable to the override of
the Momentum budgetary controls by OFM’s budget staff. Moreover, while OFM

Audit of the SEC Budget Execution Cycle                               March 29, 2011
Report No. 488
                                          Page 13
Reference Guide 01-06 provides a methodology for logging an override of
internal control, there is no requirement to document follow-up actions to ensure
financial integrity or statutory compliance.

The override of the Momentum budgetary controls by the OFM senior budget
analyst allowed the sum of the allocation amounts to exceed the FY2010
apportionment. OMB Circular A-11, Appendix H, refers to the fact that violations
of allotments are violations of the Antideficiency Act. The SEC utilizes
allocations in lieu of allotments and, accordingly, the fact that the SEC’s
allocation exceeded its apportionment was inconsistent with the requirements of
OMB Circular A-11, Appendix H, and SEC-R 14-1. Moreover, the override of the
Momentum budgetary controls could lead to a situation in which obligations or
expenditures exceed the apportionment, in violation of the Antideficiency Act. 17

       Recommendation 3:

       The Office of Financial Management should complete a risk reassessment
       and include the inactivation of Momentum budget controls as a high-risk area
       in OFM Reference Guide 01-06, General Guidance: Override of Internal
       Control.

       Management Comments. OFM concurred with the recommendation. See
       Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OFM concurred with this
       recommendation.

       Recommendation 4:

       The Office of Financial Management should revise the Internal Control
       Override Template included in OFM Reference Guide 01-06, General
       Guidance: Override of Internal Control, to include a section for follow-up
       actions to ensure financial integrity or statutory compliance and ensure that
       significant overriding of financial controls be required to be approved by
       senior-level officials.

       Management Comments. OFM concurred with the recommendation. See
       Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OFM concurred with this
       recommendation.




17
     Antideficiency Act, 31 USC 1517(a).

Audit of the SEC Budget Execution Cycle                                  March 29, 2011
Report No. 488
                                           Page 14
   Recommendation 5:

   The Office of Financial Management should formally document its allotments
   as required by Appendix H of Office of Management and Budget Circular A-
   11 to evidence the transfer of legal responsibility of funds to the recipient.

   Management Comments. OFM concurred with the recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OFM concurred with this
   recommendation.


Finding 3: The SEC’s BPPAS System Is Not
Configured to Accept More Than One
Appropriation
       The BPPAS system is not configured to accept more than
       one Treasury Appropriation Fund Symbol (TAFS). As a
       result, the SEC does not have a full view of its budgetary
       authority and the purposes for which it is used.

The SEC’s BPPAS is an activity-based costing/performance-based budgeting
application that electronically facilitates the annual budget formulation and
management of budget authority for the Commission.

BPPAS serves as the original point of entry for all SEC budgetary information in
the year of budget execution and acts a feeder system to the Momentum
application (Version 6.1.5), the SEC’s core financial system of record. Budgetary
transactions are exchanged between BPPAS and Momentum through an
automated two-way interface.

During the year of budget execution, appropriated funds are allocated to SEC
offices/divisions through BPPAS. Further, budget authority reprogramming and
realignment actions are also requested and approved through the BPPAS
application. Budgetary information in BPPAS is utilized as a baseline for
comparison to financial plans during the SEC semi-annual financial reviews of
budget execution.

For FY 2009 and FY 2010, the SEC was funded by multiple appropriations. As
noted previously, the SEC is normally financed through an annual general
appropriation of funds enacted by Congress that may remain available until
expended (“no-year” funds) to fund the Commission’s necessary expenses in
fulfilling its mission. These expenses include payroll and related expenses,

Audit of the SEC Budget Execution Cycle                              March 29, 2011
Report No. 488
                                          Page 15
travel, printing, IT, and other equipment purchases and services. Further, as part
of the appropriations language in each FY’s appropriations act, the SEC is
required to offset its appropriations through offsetting collections. 18,19 The
Treasury has designated the SEC annual general appropriation with the TAFS
“50X0100.”

Pursuant to P.L. 111-32, enacted on June 24, 2009, the SEC received a
supplemental appropriation of $10 million for FYs 2009 and 2010 for the stated
purpose of “investigation of securities fraud.” 20 The supplemental appropriation
was not subject to financing through offsetting collections as is required for the
SEC’s general annual appropriation. Further, Treasury designated the
supplemental appropriation with the separate and distinct TAFS of
“5009/100100,” which is referred to and designated in the SEC core financial
accounting system as the “M0100” appropriation.

Our fieldwork found that BPPAS is configured to track only one appropriation
symbol. Current OFM management practice for budgetary transactions of
appropriations other than the annual general appropriation requires direct data
entry into the Momentum core financial system of record through manual
override of established budgetary controls. Momentum has an inherent limitation
in the informational detail that can be stored within the application for the purpose
and use of authorized funds (i.e., narrative justification).

Effective FY 2012, under Section 991 of the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), Congress has established a
separate appropriation titled “Securities and Exchange Commission Reserve
Fund” in addition to the Commission’s annual general appropriation. This fund is
to be financed through registration fee collections with a balance that cannot
exceed $100 million. In accordance with the Act,

      The Commission may obligate amounts in the Reserve Fund, not to
      exceed a total of $100,000,000 in any one fiscal year, as the Commission
      determines is necessary to carry out the functions of the Commission.
      Any amounts in the reserve fund shall remain available until expended.
      Not later than 10 days after the date on which the Commission obligates
      amounts under this paragraph, the Commission shall notify Congress of
      the date, amount, and purpose of the obligation. 21

In an environment of multiple appropriations, the SEC needs to have BPPAS
configured to accept more than one appropriation to avoid an increased level of
manual override activity and mitigate the increased effort required to support
congressional reporting requirements under the Dodd-Frank Act. Without full
18
     P.L. 111-8, op. cit. p. 148.
19
     P.L. 111-17, op. cit. p. 164.
20
     P.L. 111-32, op. cit. p. 21.
21
     Dodd-Frank Act, Sec. 991(e)(1)(3).

Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page 16
visibility of the purpose and use of funds, the SEC may be at risk of future
Purpose Statute and Antideficiency Act violations related to the separate
“Securities and Exchange Commission Reserve Fund” appropriation established
under the Dodd-Frank Act.

   Recommendation 6:

   The Office of Financial Management should initiate a review of the Budget
   and Program Performance Analysis System’s capability to accommodate
   multiple appropriations.

   Management Comments. OFM concurred with the recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OFM concurred with this
   recommendation.


Finding 4: OFM Does Not Have a Formal
Budgetary Training Program
       OFM does not have a formal ongoing budgetary training
       program to ensure that all personnel with budgetary
       responsibilities are appropriately aware of the requirements
       associated with their job functions.

We noted while conducting interviews of SEC personnel with varying budgetary
responsibilities that OFM lacks a formal SEC-focused training program for
individuals with budgetary responsibilities. In particular, we made the following
observations in OFM:
   •   Personnel have typically acquired their budgetary knowledge and skills
       through on-the-job training that was passed on by senior
       peers/supervisory employees. This has been a common experience
       regardless of the individual’s Federal agency background and was not
       specific to the SEC.
   •   On-the-job training materials consist of personal, handwritten steps or
       notes on a notebook, steno pad, etc.
   •   Knowledge of career path training courses to enhance employees’ skill
       sets are subject to being communicated through an informal peer network.
   •   Junior personnel are aware of how to perform specific tasks, but they lack
       awareness of the compliance purpose behind their task (e.g., avoidance of
       Antideficiency Act violations).


Audit of the SEC Budget Execution Cycle                               March 29, 2011
Report No. 488
                                          Page 17
Reliance on on-the-job training increases the risk that budgetary personnel may
be introduced to inconsistent and bad practices by senior peers or supervisory
personnel who also acquired their knowledge and skills through on-the-job
training. Tasks are at risk of being performed on a rote basis by junior
employees who may not have a clear understanding of the purpose and function
of their work.

Formal training can strengthen the analytical, planning, and implementation skills
of employees with budget execution responsibilities. OPM has determined that
continuous investment in training and development is essential for improving the
performance of the Federal workforce and enhancing the services provided by
the Federal government. Further, availability of training and development is
essential to attract and retain a knowledgeable and skilled workforce. 22

The SEC is currently in the process of preparing for the release of its new Office
of Human Resources Plateau system, which consists of two components: the
Learning Management System (LMS) and the Performance Management
Information System (PMIS). While the LMS and PMIS modules are intended to
eventually be applied on an agency-wide basis, there is no current plan related to
budgetary training offerings and performance management of budget execution
positions.

      Recommendation 7:

      The Office of Financial Management, in consultation with the Office of Human
      Resources, should develop and establish a formal, ongoing Securities and
      Exchange Commission–focused budgetary training program.

      Management Comments. OFM concurred with the recommendation. See
      Appendix VI for management’s full comments.

      OIG Analysis. We are pleased that OFM concurred with this
      recommendation.




22
     Office of Personnel Management, Training and Development Policy Webpage.

Audit of the SEC Budget Execution Cycle                                         March 29, 2011
Report No. 488
                                              Page 18
Finding 5: OFM Does Not Require Written
Authorization of Reprogramming and
Realignment Actions Between Budget Object
Classes
           OFM does not require written authorization of
           reprogramming and realignment actions between Budget
           Object Classes. As a result, OFM has a control deficiency in
           the design of internal control for reprogramming and
           realignment actions.

Pursuant to OMB Circular A-123, management is responsible for establishing
and maintaining internal control to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations. 23

Further, OMB Circular A-11 provides guidance to Federal agencies on the
President’s Budget process and the basic laws that regulate the preparation,
submission, and execution of the budget. In particular, Part 4 of OMB Circular A-
11 contains instructions on budget execution, including guidance on the
apportionment and reapportionment process, guidance on reporting on budget
execution and budgetary resources, and a checklist for fund control regulations
(Appendix H) that each agency must comply with in its respective administrative
control of funds regulation.

In Section 10 of Appendix H, Checklist for Fund Control Regulations, each
Federal agency’s management is responsible for describing the agency’s
procedures for requesting apportionment of funds. While not required, the
agency may opt to include general guidance covering apportionment action in
connection with supplemental appropriations, reprogramming of funds, and
transfer of funds between accounts.

Our review of the SEC’s Administrative Control of Funds Regulation (SEC-R 14-
1) noted that paragraph 9.d (6) provides the following:
           Changes to allotments, suballotments, and allowances will
           occur only when approved by the CFO, or designee.
           Changes will be made to reflect supplemental appropriations
           and reprogramming.

During our fieldwork and discussion with OFM management, we noted that
current management practice requires the approval of the Budget Officer or

23
     OMB Circular A-123, op. cit.

Audit of the SEC Budget Execution Cycle                                   March 29, 2011
Report No. 488
                                          Page 19
Assistant Director, Planning and Budget, or higher for any reprogramming and/or
realignment actions between different BOCs. A BOC identifies the specific
purpose for which the funds are being used by a federal agency.

We judgmentally selected and tested 45 reprogramming and realignment actions
taken from FY 2009 and FY 2010. Our testing found that 3 of the 45
reprogramming actions could not be verified as having been approved in
accordance with current management practice (i.e., approved by the Budget
Officer or Assistant Director, Planning and Budget). Upon further request for
supporting documentation evidencing appropriate approval by the Budget Officer
or Assistant Director, Planning and Budget, we were advised that current
management practice for authorization of reprogramming and realignment
actions between BOCs may be provided orally. In the absence of evidence for
the authorization (e.g., emails, memoranda), we could not verify that the three
reprogramming actions were processed in accordance with the SEC’s
Administrative Control of Funds Regulation. Therefore, we determined that this
matter represents a control deficiency in the design of OFM‘s internal controls.

   Recommendation 8:

   The Office of Financial Management should revise the current reprogramming
   and realignment procedures to require that the Budget Officer or the Assistant
   Director, Planning and Budget, approve in writing all reprogramming and
   realignment actions that cross two-digit Budget Object Classes.

   Management Comments. OFM concurred with the recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OFM concurred with this
   recommendation.


Finding 6: Reprogramming and Realignment of
Funds Are Not Sufficiently Tracked by OFM
       SEC reprogramming and realignment actions are subject to
       a diminished audit trail and a lack of timely monitoring
       throughout the year of budget execution. As a result, the
       SEC has an increased risk of exceeding established
       Appropriations Act reprogramming thresholds during the
       year of execution.

Reprogramming is defined as “the use of funds for purposes other than those
originally contemplated at the time of appropriation.” This definition is
supported in the GAO decision in the matter of Budget Programming, B-

Audit of the SEC Budget Execution Cycle                             March 29, 2011
Report No. 488
                                          Page 20
223474 (Washington, D.C., July 16, 1986). Realignment is a reallocation of
funds, such as between SEC offices/divisions, usually for the same purpose
(i.e., with the same BOC). However, in practice, the terms are used
interchangeably.

Each fiscal year, Section 608 of the relevant appropriations act (P.L. 111-8 for
2009, P.L. 111-117 for FY 2010), provides the SEC with additional authority to
reprogram or realign the appropriated funds for emergent requirements subject to
certain limits. These limits are as follows:
           [None of the funds] shall be available for obligation or
           expenditure through a reprogramming of funds that: (1)
           creates a new program; (2) eliminates a program, project, or
           activity; (3) increases funds or personnel for any program,
           project, or activity for which funds have been denied or
           restricted by the Congress; (4) proposes to use funds
           directed for a specific activity by either the House or Senate
           Committees on Appropriations for a different purpose; (5)
           augments existing programs, projects, or activities in excess
           of $5,000,000 or 10 percent, whichever is less; (6) reduces
           existing programs, projects, or activities by $5,000,000 or 10
           percent, whichever is less; or (7) creates or reorganizes
           offices, programs, or activities unless prior approval is
           received from the Committees on Appropriations of the
           House of Representatives and the Senate. 24,25

In accordance with each enacted appropriations act, reprogramming actions in
excess of the established reprogramming thresholds (lesser of $5 million or 10
percent) must receive prior approval by the Committees on Appropriations of the
House of Representatives and the Senate. Once approved, these
reprogrammed funds re-establish the SEC’s baseline for reprogramming
activities.

During the year of budget execution, OFM current management practice is for
realignment and reprogramming actions to be initiated through BPPAS. As
applicable, realignment and reprogramming actions during a year of execution
may be initiated through either of the following BPPAS processes: (1) Budget
IntraAgency Transfer, for daily operational realignment and reprogramming
actions, or (2) Financial Review Process, for reprogramming and realignment
actions included in the initial fund allocation, mid-year review, and end-year
financial review.




24
     P.L. 111-8, Div. D, Sec. 608, p. 152.
25
     P.L. 111-117, Div. C, Sec. 608, p. 169.

Audit of the SEC Budget Execution Cycle                                     March 29, 2011
Report No. 488
                                               Page 21
Post-fiscal-year-end reprogramming and realignment actions are processed
directly into the Momentum system and are not initiated through BPPAS.

We could not identify detailed transactions in BPPAS for the following FY 2010
reprogramming and realignment actions:
           •    $1,280,500 realigned from BOC 32 (Buildings and Alterations) after the
                initial baseline for reprogramming was established.
           •    “Prior approval” reprogrammings for:
                     o $4 million on May 27 (with further information provided on June
                         11) from BOCs 11 and 12 (Pay and Benefits) to BOCs 25 and
                         31 (Other Services and Equipment),
                     o $7.5 million on July 16 from BOCs 11 and 12 to BOCs 25 and
                         31.
           •    Mid-year review.
           •    End-year financial review.

We found during our fieldwork that OFM does not retain detailed reprogramming
and realignment actions in a common data table in either the BPPAS or
Momentum applications:
      •    Daily operational realignment and reprogramming actions processed
           through the Budget IntraAgency Transfer process are retained in detail in
           a separate Budget IntraAgency Transfers log within BPPAS.
      •    Financial review actions are compiled and stored on a four-digit summary
           net change basis in a separate Financial Review data table within BPPAS.
      •    Post-fiscal-year-end reprogramming and realignment actions are
           processed directly into the Momentum system. Momentum has an
           inherent limitation in the informational detail that can be stored within the
           application concerning the purpose and use of authorized funds (i.e.,
           narrative justification).

Each appropriations act directs the SEC to submit a report to Congress not later
than 60 days after its enactment. 26,27 The report, delineated by BOC, establishes
the baseline for reprogramming and discloses to Congress amounts requested in the
President’s Budget, the appropriation actions taken by Congress, and any initial
realignments.

OFM management monitors the enacted reprogramming thresholds through a
password-protected Reprogramming Limitations Tracking spreadsheet that is
maintained by a senior budget analyst. However, we found that the SEC’s first
Reprogramming Limitations Tracking worksheets were not produced for FY 2009
and FY 2010 until July 24, 2009, and July 9, 2010, respectively. In addition, we

26
     P.L. 111-8, op. cit., p. 152.
27
     P.L. 111-117, op. cit., p. 169.

Audit of the SEC Budget Execution Cycle                                     March 29, 2011
Report No. 488
                                          Page 22
found that each FY’s first Reprogramming Limitations Tracking worksheet failed
to provide an appropriate audit trail of individual reprogramming actions prior to
the worksheet date. Subsequent discussion with OFM management indicated
that the current OFM management practice is to not update the Reprogramming
Limitations Tracking worksheet after the close of each FY, due to the expiration
of the reprogramming limitations. The purpose of maintaining a complete tracking
of reprogramming/ realignment actions, even subsequent to the fiscal year end,
is to provide information to management regarding completed actions that may
influence future budget decisions and also provides a complete audit trail of a
fiscal year’s budget activity.

The diminished audit trail for reprogramming and realignment actions processed
through BPPAS and the lack of timely and complete Reprogramming Limitations
Tracking worksheets increase the SEC’s risk of exceeding established
reprogramming thresholds during the year of budget execution.

While we acknowledge that there is no statutory penalty for exceeding
reprogramming thresholds, Congress may react negatively to such a violation by
reducing or entirely removing the SEC’s reprogramming authority, resulting in a
loss of flexibility in the use of funds.

   Recommendation 9:

   The Office of Financial Management should establish a process to sufficiently
   and accurately track reprogramming/realignment activities in one central
   location.

   Management Comments. OFM concurred with the recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OFM concurred with this
   recommendation.




Audit of the SEC Budget Execution Cycle                             March 29, 2011
Report No. 488
                                          Page 23
                                                                         Appendix I


                         Acronyms/Abbreviations

      BOC                            Budget Object Class
      BPPAS                          Budget and Program Performance Analysis
                                     System
      CFO                            Chief Financial Officer
      CFR                            Code of Federal Regulations
      COSO                           Committee of Sponsoring Organizations of the
                                     Treadway Commission
      FAM                            Financial Audit Manual
      GAO                            Government Accountability Office
      IT                             Information Technology
      LMS                            Learning Management System
      OAS                            Office of Administrative Services
      OED                            Office of Executive Director
      OFM                            Office of Financial Management
      OGC                            Office of General Counsel
      OIG                            Office of Inspector General
      OMB                            Office of Management and Budget
      PCIE                           President’s Council on Integrity and Efficiency
      PMIS                           Performance Management Information System
      SEC or Commission              U.S. Securities and Exchange Commission
      SEC-R                          SEC Administrative Regulation
      TAFS                           Treasury Appropriation Fund Symbol
      USC                            United States Code




Audit of the SEC Budget Execution Cycle                                 March 29, 2011
Report No. 488
                                          Page 24
                                                                        Appendix II


                       Scope and Methodology

This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. OIG contracted with Acuity to conduct a performance audit and identify
potential areas for improvement with regard to the Commission’s budget
execution processes. The overall objective of the audit was to determine
whether sufficient management controls over the SEC’s budget execution
processes were in place and were operating effectively. The scope of the audit
covered the SEC’s budget execution activities for FYs 2009 and 2010 and
included examining the following:

    •   The various lines of authority and responsibility with regard to
        Commission budget decisions
    •   The Commission’s processes for administrative division and subdivision
        of funds
    •   The policies and procedures in place to ensure appropriate spending of
        approved budgets
    •   The SEC’s policies and procedures for monitoring obligations incurred to
        ensure that apportionments and allotments are not exceeded

Additional work conducted included testing gaps and deficiencies in budget
execution activities with respect to non-payroll obligations, de-obligation reviews,
and contract closeout procedures. Acuity conducted its fieldwork from August
2010 to February 2011.

Methodology. To meet the overall objective of determining whether sufficient
management controls over the SEC’s budget execution processes were in place
and were operating effectively and appropriately, the Acuity team discharged its
professional responsibilities and adopted a top-down, risk-based approach to
plan the audit. In the audit plan, consideration was given to risks that might
affect the audit’s objectives, operations, and resources.

Further, additional considerations were given to identify sufficient, appropriate
audit evidence and to establish a basis for determining the timing and extent of
Acuity’s testing activities. Where appropriate, Acuity reviewed and relied upon
workpapers and testing completed during the OMB Circular A-123 review in



Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page 25
                                                                           Appendix II

October 2010. As applicable, Acuity used of technology-based audit tools and
other data analysis techniques.

In order to accomplish the audit objectives, Acuity conducted interviews with
selected personnel with budgetary responsibilities. Our purpose was to assess
whether SEC personnel had the necessary technical competency, skills, and
appropriate empowerment to discharge their budget decision responsibilities and
to ensure compliance with all applicable regulations and legislation.

In addition, Acuity gathered information to determine whether the SEC clearly
communicates the necessary core competencies to Budget Execution Cycle
personnel with budget decision responsibilities and provides a formal, SEC-
focused budgetary training program for its personnel.

Further, in order to accomplish our audit objectives we reviewed the SEC policies
and procedures pertaining to ensuring appropriate spending of approved
budgets, monitoring obligations incurred to ensure that apportionments and
allotments are not exceeded, and administrative division and subdivision of
funds.

Our audit objectives also included evaluating the design of the Commission’s
processes and related Budget Execution internal control activities. The
evaluation of internal controls and design effectiveness was measured against
the budget control objectives identified in the GAO/President’s Council on
Integrity and Efficiency (PCIE) Financial Audit Manual (FAM). 28

In addition to evaluating the design effectiveness of internal controls, we deemed
that effective controls must operate as designed. We conducted tests of key
applications, processes, and controls to ensure that they functioned effectively
and aligned with management’s assertion of the controls. Our testing further
included reviewing select gaps that were identified by OFM’s contractor and
deficiencies in budget execution activities with respect to non-payroll obligations,
de-obligation reviews, and contract closeout procedures.

Internal Controls. The July 2007 revision of GAO Government Auditing
Standards, effective January 1, 2008, includes the requirement to understand
internal controls that are significant within the context of the audit objectives. The
revised standards indirectly refer to internal control guidance contained in
Internal Control – Integrated Framework (COSO Report), published by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO).
The COSO report provides the framework for organizations to design, implement,
and evaluate controls that will facilitate compliance with Federal laws,
regulations, and program compliance requirements. To ensure that the SEC
continues its standard of excellence and transparency in reporting, the COSO

28
     GAO/PCIE Financial Audit Manual, Volume I, GAO-08-585G, p. 395 F-1.

Audit of the SEC Budget Execution Cycle                                    March 29, 2011
Report No. 488
                                               Page 26
                                                                        Appendix II

Integrated Framework, as supported by GAO, is the framework that the SEC’s
control activities were measured against for this audit.

To facilitate our understanding of applicable Budget Execution Cycle process
controls, Acuity compiled information in the GAO audit accounting cycle
memoranda, FY 2010 OMB Circular A-123 risk control matrices, current policies
and procedures, memoranda, and other applicable documentation provided by
management into a process narrative document.

We reviewed the management control activities as they pertained to the audit
objectives and assessed the budget execution cycle’s structure key controls and
design effectiveness.

Sampling. The sampling methodology employed was a combination of
statistical and judgmental techniques as applicable to the respective key controls.
Statistical and judgmental sample sizes were established in accordance with the
GAO/PCIE FAM. Select SEC offices/divisions (e.g., the Fort Worth Regional
Office) were subject to specific sampling to address additional fraud risk that was
found during our initial survey fieldwork.

Judgmental sampling techniques were employed where the use of statistical
sampling was not the appropriate technique or where evidence was readily
available from another source that provided a more accurate basis or had greater
evidentiary value. Judgmental sample sizes were determined after giving
consideration to the type of control (i.e., manual or automated), frequency of
control, complexity of the control, and professional judgment.

Further, we specifically identified and tested a universe of 12 contracts that cited
both the “M0100” and “X0100” appropriations during the period in scope. The
supporting contracts and respective modifications were reviewed to assess the
propriety of compliance with the Purpose Statute.

Statistically based sampling techniques were applied against two separate
universes of obligation and de-obligation transactions that occurred between
October 1, 2008, and September 30, 2010. Statistically selected dollar-unit, or
monetary-unit, samples were selected for dual testing purposes and compiled
through the use of IDEA software.




Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page 27
                                                                    Appendix III


                                          Criteria

31 United States Code

   § 1301(a) The Purpose Statute. Governs the use of appropriated funds.

   § 1341(a) The Antideficiency Act. Governs limitations, exceptions, and
             penalties on obligations in excess of or advance of appropriations
             or allocations.

   § 1517        The Antideficiency Act. Governs limitations, exceptions, and
                 reports on obligations in excess of apportionments.

FY 2009 Consolidated Appropriations Act (Public Law 111-8), Division D,
Section 608. Provides guidance on the amount of enacted funding,
reprogramming limitations, and submission of a baseline report to Congress.

FY 2009 Supplemental Appropriations Act (Public Law 111-32), Division D,
Section 608. Provides guidance on the amount and purpose of enacted
supplemental funding and restrictions.

FY2010 Consolidated Appropriations Act (Public Law 111-117), Division C,
Section 608. Provides guidance on the enacted funding, reprogramming
limitations, and submission of a baseline report to the Congress.

Office of Management and Budget Circular A-11, Preparation, Submission
and Execution of the Budget, July 2010, Part 4 and Appendix H. Provides
guidance on apportionment and budget execution and content of regulations
governing administrative control of funds.

Government Accountability Office Principles of Federal Appropriations Law
(Red Book), Third Edition, Volume I, Chapter 2.B.2.b. Provides guidance on
the appropriate treatment for two appropriations available for the same purpose.
Volume II, Chapter 6.C.2.d, provides guidance on specific appropriation
limitations/purpose violations.

Budget and Accounting Procedures Act of 1950. Directs the Comptroller
General, in consultation with the Director of OMB and the Secretary of the
Treasury, to prescribe accounting principles, standards, and related
requirements.

Federal Financial Management Improvement Act of 1996. Mandates that
Federal financial systems provide accurate, reliable, and timely financial
management information to Federal managers.

Audit of the SEC Budget Execution Cycle                            March 29, 2011
Report No. 488
                                           Page 28
                                                                Appendix III

OMB Circular A-127 (Issued September 2009). Establishes the requirements
for Federal financial management systems.

SEC Administrative Regulation 30-1 (Issued June 1996). Prescribes
procedures for establishment, maintenance, and evaluation of management
controls.

SEC Administrative Regulation 14-1 (Revised August 18, 2010). Establishes
the policies and procedures for administrative control of funds.




Audit of the SEC Budget Execution Cycle                         March 29, 2011
Report No. 488
                                          Page 29
                                                                       Appendix IV


                      List of Recommendations

Recommendation 1:

The Office of Financial Management, in consultation with the Office of General
Counsel, should request a formal opinion from the Comptroller General as to
whether the Commission violated the Purpose Statute, and as a consequence
the Antideficiency Act, by charging certain costs of information technology
projects and expert witness fees to both the general and supplemental
appropriations.

Recommendation 2:

The Office of Financial Management, in consultation with the Office of the
Executive Director and the Office of General Counsel, should establish policies
and guidance on how to fund expenditures where there are multiple
appropriations available for the same purpose.

Recommendation 3:

The Office of Financial Management should complete a risk reassessment and
include the inactivation of Momentum budget controls as a high-risk area in the
OFM Reference Guide 01-06, General Guidance: Override of Internal Control.

Recommendation 4:

The Office of Financial Management should revise the Internal Control Override
Template included in OFM Reference Guide 01-06, General Guidance: Override
of Internal Control, to include a section for follow-up actions to ensure financial
integrity or statutory compliance and ensure that significant overriding of financial
controls be required to be approved by senior-level officials.

Recommendation 5:

The Office of Financial Management should formally document its allotments as
required by Appendix H of Office of Management and Budget Circular A-11 to
evidence the transfer of legal responsibility of funds to the recipient.




Audit of the SEC Budget Execution Cycle                                March 29, 2011
Report No. 488
                                          Page 30
                                                                     Appendix IV

Recommendation 6:

The Office of Financial Management should initiate a review of the Budget and
Program Performance Analysis System’s capability to accommodate multiple
appropriations.

Recommendation 7:

The Office of Financial Management, in consultation with the Office of Human
Resources, should develop and establish a formal, ongoing Securities and
Exchange Commission–focused budgetary training program.

Recommendation 8:

The Office of Financial Management should revise the current reprogramming
and realignment procedures to require that the Budget Officer or the Assistant
Director, Planning and Budget, approve in writing all reprogramming and
realignment actions that cross two-digit Budget Object Classes.

Recommendation 9:

The Office of Financial Management should establish a process to sufficiently
and accurately track reprogramming/realignment activities in one central location.




Audit of the SEC Budget Execution Cycle                             March 29, 2011
Report No. 488
                                          Page 31
                                                                                                                                                                                    Appropriation
                                                                                                                                                                                                                     Incorrect   Incorrect
                                                                                                                                                     Moment.                                                        Obligation  Obligation
                                                              Vendor                  DOC NO                  Momentum Contract Description OBL FY             BOC     M0100           X0100        Grand Total    from M0100 from "X0100"                           Notes
                                                    BERDON , LLP              OA SECHQ1-10-C-0056            Expert Witness, requesting                                                                                                       Case No 05-cv-480-MSK.
                                                                                                             additional funds for additional        FY09/10    2510   $129,675.00                    $129,675.00                              Original Obligation cited "M0100".
                                                                                                             testimony and for the attendant                                                                                                  Amendment originally cited "M0100", but
                                                                                                             travel. In addition, the staff intends            4201      $116.29                         $116.29                              recorded in Momentum as "X0100".
                                                                                                             to ask Ms. Hoffman's team for some                                                                                               Amendment in process to amend contract to
                                                                                                             assistance with preparation of the     FY10       2510                    $48,000.00     $48,000.00                   $48,000.00 cite "X0100".
                                                                                                             pre-trial order in this case which is                                                                                            Same case number.
                                                                                                             due mid-March.                                    4201                         $8.18          $8.18                        $8.18




          Report No. 488
                                                                              OA SECHQ1-10-C-0056 Total                                                               $129,791.29      $48,008.18    $177,799.47         $0.00     $48,008.18
                                                    DR. LEE SEIDLER           PC SECHQ1-08-C-8325            HO-09429 ITMO AOL Time Warner;                                                                                                    No specific cases identified for contract
                                                                                                             EW-Lee Seidler; Staff- Richard FY09               2510                    $84,000.00     $84,000.00                               amendments.
                                                                                                             Hong; Contract CP estimated @                                                                                                     Original contract in FY08 cited "X0100".
                                                                                                             $105K;                         FY09/10            2510    $62,500.00                     $62,500.00    $62,500.00                 Amendment P00001 cited "X0100";
                                                                                                             Labor $100K                                                                                                                       Amendment P00002 cited "M0100" for same
                                                                                                             ODCs $5K                       FY10               2510                    $88,000.00     $88,000.00                               CLIN;
                                                                                                                                                                                                                                               Amendment P00003 cited "X0100" for same
                                                                              PC SECHQ1-08-C-8325 Total                                                                $62,500.00     $172,000.00    $234,500.00    $62,500.00           $0.00 CLIN.
                                                    FOCAL POINT, LLC, THE     OA SECHQ1-10-C-0116            HO-09429 ITMO AOL-Time Warner;                                                                                                    Case no 07-3444JF, SEC v. Leslie, et al.
                                                                                                             SEC v Leslie; EW-The Focal Point;
                                                                                                             SEC Staff - Richard Hong; Total   FY09/10         2510    $10,000.00                     $10,000.00                                 CLIN 0001 split funded between "M0100" and
                                                                                                             contract value = $40K ($10K to be                                                                                                   "X0100".
                                                                                                             funded in FY-10; $30K will be
                                                                                                             funded with FY-11).               FY10            2510                    $30,000.00     $30,000.00                   $30,000.00




          Audit of the SEC Budget Execution Cycle
                                                                              OA SECHQ1-10-C-0116 Total                                                                $10,000.00      $30,000.00     $40,000.00         $0.00     $30,000.00
                                                    GUIDANCE SOFTWARE INC     PC SECHQ1-08-P-8316            Award                                                                                                                               Original contract in FY08 cited "X0100".
                                                                                                                                                 FY09/10       2570   $131,500.00                    $131,500.00                                 First option renewal in FY09 cited "M0100".
                                                                                                                                                                                                                                                 Second option renewal cited "X0100".
                                                                                                                                                 FY10          2570                   $131,500.00    $131,500.00                  $131,500.00

                                                                             PC SECHQ1-08-P-8316 Total                                                                $131,500.00     $131,500.00    $263,000.00         $0.00    $131,500.00
                                                    GUIDENT TECHNOLOGIES INC OA SECHQ1-09-CALL-A0009         Automated Blue Sheet Analysis.                                                                                                   OED guidance memo states use "M0100" for




Page 32
                                                                                                             Project Automated Blue Sheet        FY09/10       3121   $144,255.82                    $144,255.82                              Blue Sheet Analysis program.
                                                                                                             Analysis                                                                                                                         Momentum shows obligation for contract of
                                                                                                                                                               4201        $66.16                         $66.16                              9/20/09 as "M0100";
                                                                                                                                                                                                                                              Contract document cites "X0100";
                                                                                                                                                 FY10          3121                    $51,036.59     $51,036.59                   $51,036.59 Subsequent contract amendments cite "X0100".

                                                                                                                                                               4201                      $112.39         $112.39                      $112.39

                                                                              OA SECHQ1-09-CALL-A0009 Total                                                           $144,321.98      $51,148.98    $195,470.96         $0.00     $51,148.98
                                                    HEMMING MORSE INC         PC SEC08-09-C-0370         Expert Paul Regan in New Century                                                                                                        Original contract cited "X0100" for case on New
                                                                                                         (LA-3349).                              FY09          2510                    $20,000.00     $20,000.00                                 Century Corp.
                                                                                                                                                                                                                                                 Amendment for increase in ceiling price
                                                                                                                                                 FY09/10       2510    $14,577.50                     $14,577.50    $14,577.00                   (+$14,577) cited "M0100" for same case, same
                                                                                                                                                                                                                                                 CLIN.
                                                                              PC SEC08-09-C-0370 Total                                                                 $14,577.50      $20,000.00     $34,577.50    $14,577.00           $0.00
                                                    LABAT/ANDERSON, INC.      PC SECHQ1-05-A-0379-TO-0027 Modify SECHQ1-05-A-0379-                                                                                                             OED guidance memo states use "M0100" for
                                                                                                          Ongoing Paper Doc Capture              FY09/10       2414   $664,657.18                    $664,657.18                               document imaging operation & maintenance.
                                                                                                          Project: Document Imaging O&M                                                                                                        Original contract (8/17/2009) cited "X0100".
                                                                                                                                                               4201      $160.13                         $160.13                               Amendment P00001 (8/19/2009) changed cited
                                                                                                             Line Item: Ongoing Paper Document                                                                                                 appropriation from "X0100" to "M0100".
                                                                                                             Capture                           FY10            2414                 $1,150,000.00 $1,150,000.00                  $1,150,000.00 All subsequent amendements and de-
                                                                                                             SS                                                                                                                                obligations cited "X0100" but shared CLINs.
                                                                                                                                                               4201                      $265.60         $265.60                      $265.60

                                                                              PC SECHQ1-05-A-0379-TO-0027 Total                                                       $664,817.31 $1,150,265.60 $1,815,082.91            $0.00 $1,150,265.60
                                                    NUIX NORTH AMERICAN INC   OA SECHQ1-10-C-0028         Project: Native File Searching for                                                                                                  OED guidance memo states use "M0100" for
                                                                                                          Investigations. Line Item: NUIX        FY09/10       3120   $214,997.82                    $214,997.82                        $0.00 Native File Searching program.
                                                                                                          Pilot DME. Megan Steighner                                                                                                          CLINs 0001AA and 0001AB split funded
                                                                                                          10/28/2009 M0100 Funds                               4201      $165.25                         $165.25                        $0.00 between "M0100" (re: IT software & hardware)
                                                                                                                                                                                                                                                                                                   Schedule of Potential Purpose Statute Violations




                                                                                                                                                                                                                                              and "X0100" (re: System Tech & Project
                                                                                                                                                 FY10          2526                    $91,450.20     $91,450.20                   $91,450.20 Manager services) for different BOCs.
                                                                                                                                                                                                                                              Remainder of contract cited "M0100".
                                                                                                                                                               4201                        $37.43         $37.43                       $37.43
                                                                                                                                                                                                                                                                                                                                                      Appendix V




                               March 29, 2011
                                                                              OA SECHQ1-10-C-0028 Total                                                               $215,163.07      $91,487.63    $306,650.70         $0.00     $91,487.63

                                                    TOTAL PURPOSE STATUTE EXCEPTIONS                                                                                                                                $77,077.00 $1,502,410.39

                                                    NET                                                                                                                                                                          $1,425,333.39
                                                                            Appendix VI


                      Management’s Comments


                                 MEMORANDUM

                                     March 25, 2011


TO:            H. David Kotz
               Inspector General

FROM:          Kenneth A. Johnson /s/
               Chief Financial Officer
               Office of Financial Management

   SUBJECT:          Office of Financial Management (OFM) Management Response to
   Draft Report No. 488, Audit of the SEC Budget Execution Cycle


Thank you for the opportunity to review and respond to the Office of Inspector General’s
Draft Report No. 488, entitled Audit of the SEC Budget Execution Cycle. We concur with the
nine recommendations presented in the report and have begun taking appropriate steps to
implement them.

Recommendation 1:

OFM concurs. OFM and the Office of the General Counsel (OGC) have studied the issue
of whether charging certain costs to both: a) the general appropriations available during
fiscal years 2009 and 2010; and b) the Supplemental Appropriations Act, 2009, P.L. 111-
32 (June 24, 2009) violated the Purpose Statute. We believe no such violation took place,
because of the guidance provided in Chapter 2 of the GAO Redbook, “Specific versus
General Appropriations,” section b. “Two Appropriations Available for Same Purpose,”
which states: “Of course, where statutory language clearly demonstrates congressional
intent to make one appropriation available to supplement or increase a different
appropriation for the same type of work, both appropriations are available.” Both the
Supplemental Appropriation and the accompanying Conference Report make clear that
the Supplemental Appropriation was to provide an “additional” amount for investigations
of securities fraud. Accordingly, our view is that the agency’s use of the Supplemental
Appropriation did not violate the Purpose Statute or the Anti-Deficiency Act.

We appreciate your discussion of this viewpoint in your report, and concur with the
recommendation that the agency reach out to the Government Accountability Office to
request a formal opinion from the Comptroller General. OFM and OGC already have
initiated that process.

Audit of the SEC Budget Execution Cycle                                     March 29, 2011
Report No. 488
                                          Page 33
Recommendation 2:


OFM concurs. OFM, in consultation with the Office of the Executive Director and OGC,
will establish policies and guidance on the use of multiple appropriations available for the
same purpose.


Recommendation 3:


OFM concurs. A risk reassessment will be completed and OFM Reference Guide 01-06,
General Guidance: Override of Internal Control, will be updated to include inactivation
of Momentum budget controls as a high-risk area.


Recommendation 4:


OFM concurs. The Internal Control Override Template included in OFM Reference
Guide 001-06, General Guidance: Override of Internal Control, will be revised to
include a section for follow-up actions to ensure financial integrity/statutory compliance
and that senior-level officials approve significant overrides of financial controls.


Recommendation 5:


OFM concurs. In accordance with Appendix H of OMB Circular A-11, Preparation,
Submission and Execution of the Budget, and the delegation authority in section 3c(2) of
SEC-R 14-1, Administrative Control of Funds, the Chief Financial Officer will formally
issue allotments. This will evidence the transfer of legal responsibility to the Budget
Officer.


Recommendation 6:


OFM concurs. OFM will review the Budget and Program Performance Analysis
System’s (BPPAS) capability to accommodate multiple appropriations.




Audit of the SEC Budget Execution Cycle                                      March 29, 2011
Report No. 488
                                          Page 34
Recommendation 7:


OFM concurs. Within overall agency funding constraints, OFM, in consultation with the
Office of Human Resources, will develop a formal budget training program based on the
budget execution standard operating procedures.
Recommendation 8:


OFM concurs. The budget execution operating procedures will be updated to ensure all
reprogramming and realignment actions that cross two-digit budget object classes will be
approved in writing by the appropriate officials.


Recommendation 9:


OFM concurs. OFM will update its budget execution operating procedures to incorporate
steps for tracking reprogramming and realignment activities in one central location.




Audit of the SEC Budget Execution Cycle                                   March 29, 2011
Report No. 488
                                          Page 35
                                                                   Appendix VII


      OIG Response to Management’s Comments

OFM concurred with all of the report’s nine recommendations and indicated that
it would take action to implement the recommendations. We believe that OFM’s
proposed actions are responsive to our findings, and we are pleased that it has
already initiated actions to implement some of the recommendations. The full
implementation by OFM of all of the OIG’s recommendations will result in
significant improvements to the SEC’s budget execution processes.




Audit of the SEC Budget Execution Cycle                            March 29, 2011
Report No. 488
                                          Page 36
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
